<html>
<title> - SEXUAL ASSAULT IN THE MILITARY PART IV: ARE WE MAKING PROGRESS?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





    SEXUAL ASSAULT IN THE MILITARY PART IV: ARE WE MAKING PROGRESS?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY
                          AND FOREIGN AFFAIRS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                           Serial No. 111-73

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform






                  U.S. GOVERNMENT PRINTING OFFICE
58-134 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001














              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LEUTKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSPEH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

         Subcommittee on National Security and Foreign Affairs

                JOHN F. TIERNEY, Massachusetts, Chairman
CAROLYN B. MALONEY, New York         JEFF FLAKE, Arizona
PATRICK J. KENNEDY, Rhode Island     DAN BURTON, Indiana
CHRIS VAN HOLLEN, Maryland           JOHN L. MICA, Florida
PAUL W. HODES, New Hampshire         JOHN J. DUNCAN, Jr., Tennessee
CHRISTOPHER S. MURPHY, Connecticut   MICHAEL R. TURNER, Ohio
PETER WELCH, Vermont                 LYNN A. WESTMORELAND, Georgia
BILL FOSTER, Illinois                PATRICK T. McHENRY, North Carolina
STEVE DRIEHAUS, Ohio                 JIM JORDAN, Ohio
STEPHEN F. LYNCH, Massachusetts      JEFF FORTENBERRY, Nebraska
HENRY CUELLAR, Texas                 BLAINE LUETKEMEYER, Missouri
MIKE QUIGLEY, Illinois
                     Andrew Wright, Staff Director















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 24, 2010................................     1
Statement of:
    Farrell, Brenda S., Director, Defense Capacilibites and 
      Management, Government Accountability Office, accompanied 
      by Randolph Hite, Director, Information Technology and 
      Architecture Systems, Government Accountability Office; 
      Louis Iasiello, Co-Chairman, Defense Task Force on Sexual 
      Assault in the Military Servcies, accompanyied by Brigadier 
      General Sharon K.G. Dunbar, USAF, member, Defense Task 
      Force on Sexual Assault in the Military Services; Kaye 
      Whitley, Director, Sexual Assault Prevention and Response 
      Office, Office of the Secretary of Defense; and Gail 
      McGinn, Deputy Under Secretary--Plans, Department of 
      Defense....................................................     5
        Farrell, Brenda S........................................     5
        Iasiello, Louis, and Sharon K.G. Dunbar..................    20
        McGinn, Gail.............................................    41
        Whitley, Kaye............................................    31
    Wilberding, Merle F., attorney, Coolidge Wall................    79
Letters, statements, etc., submitted for the record by:
    Farrell, Brenda S., Director, Defense Capacilibites and 
      Management, Government Accountability Office, prepared 
      statement of...............................................     8
    Iasiello, Louis, Co-Chairman, Defense Task Force on Sexual 
      Assault in the Military Servcies, and Brigadier General 
      Sharon K.G. Dunbar, USAF, member, Defense Task Force on 
      Sexual Assault in the Military Services, prepared statement 
      of.........................................................    23
    McGinn, Gail, Deputy Under Secretary--Plans, Department of 
      Defense, prepared statement of.............................    43
    Turner, Hon. Michael R., a Representative in Congress from 
      the State of Ohio:
        Op-ed piece dated August 4, 2008.........................    91
        Prepared statement of....................................    64
    Whitley, Kaye, Director, Sexual Assault Prevention and 
      Response Office, Office of the Secretary of Defense, 
      prepared statement of......................................    33
    Wilberding, Merle F., attorney, Coolidge Wall, prepared 
      statement of...............................................    82

 
    SEXUAL ASSAULT IN THE MILITARY PART IV: ARE WE MAKING PROGRESS?

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                  House of Representatives,
     Subcommittee on National Security and Foreign 
                                           Affairs,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room 2247, Rayburn House Office Building, Hon. John F. Tierney 
(chairman of the subcommittee) presiding.
    Present: Representatives Tierney, Flake, Turner, and 
Luetkemeyer.
    Also present: Representatives Harman and Speier.
    Staff present: Andy Wright, staff director; Elliot 
Gillerman, clerk; Talia Dubovi, counsel; Steven Gale, fellow; 
Aaron Blacksberg and Bronwen De Sena, interns; Tom Alexander, 
minority senior counsel; Christopher Bright, minority 
professional staff member.
    Mr. Tierney. Good afternoon, everybody. I want to thank you 
all for being here. A quorum is present, so the Subcommittee on 
National Security and Foreign Affairs' hearing entitled, 
``Sexual Assault in the Military Part IV: Are We Making 
Progress,'' will come to order.
    I ask unanimous consent that only the chairman, the ranking 
member and Mr. Turner of the subcommittee be allowed to make 
opening statements. Without objection, that is so ordered.
    Also, I ask unanimous consent that various Members, 
Representatives Harmon, Slaughter, Davis, Chu and Speier, 
should they be able on their schedules to come and participate, 
they be allowed to participate, but in accordance with 
committee rules, they will only be allowed to question the 
witnesses after all official members of the subcommittee have 
had their turn. Without objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 5 business days, so that all members of the 
subcommittee and invited participants be allowed to submit a 
written statement for the record. Without objection, so 
ordered. And I also ask unanimous consent that Ms. Slaughter be 
allowed to submit for the record that statement now, where we 
have it on record. Without objection, so ordered.
    So with that business out of the way, again, I welcome 
everybody to the subcommittee. As you know, it provides 
continued oversight of the Department of Defense's response to 
sexual assault in the military. I think it is an important 
topic and I regret if I sound like I am rushing through this, 
it is only because I understand we are going to have votes in a 
few minutes, a 15-minute vote and two 5-minute votes, which may 
take about a half hour out of us. So we will get as far along 
as we can, then we will break for a half hour, with our 
apologies. We will come back as soon as we can and then 
proceed.
    The reason we have everybody on one panel is that we tried 
to keep it at two panels, not three to get done this afternoon, 
because the main committee went over with Mr. Toyoda and 
company. So we will try to be considerate of the fact that you 
all have schedules that are busy as well. We want to take 
advantage of your time here.
    It is clear that in any context, sexual assault destroys 
lives. But sexual assault in the military has additional facets 
that make it particularly of concern to this subcommittee. 
First, it is the unquestioned duty of this body and the U.S. 
Government as a whole to protect our military service members. 
And as I have said many times, the last thing that our men and 
women in uniform should fear when they put their lives on the 
line to defend the country is being attacked by one of their 
own.
    Second, sexual assaults in the military threaten military 
readiness in an acute way. When bonds of trust are broken, when 
unit cohesion is threatened, when our soldiers are forced to 
cope with the heavy emotional and psychological burden of a 
sexual attack, our armed forces are weakened. It is not only 
individual service members who are hurt by these crimes, but 
our military as a whole.
    This is our fourth hearing on this subject over the last 2 
years. We don't really want to make this a career, but we do 
think it is an important area and that there is work to be 
done, and that there was some lag between statutory work that 
was done in the completion of setting up some of the entities 
that were going to do oversight. The focus on oversight has 
been on the Department of Defense's Sexual Assault Response 
Prevention Office [SAPRO]. It was created to be the single 
point of accountability and oversight for sexual assault policy 
within the Department. So we have been carefully monitoring its 
progress, or in the beginning, the lack thereof. But I am happy 
to say that it is moving now.
    In our first hearing in July 2008, we heard from two 
victims of sexual assault. Ms. Ingrid Torres, a manager for the 
American Red Cross who was raped while working in Kunsan Air 
Base in South Korea told us that the process of investigating 
and prosecuting the crime was just as traumatizing as the crime 
itself. Ms. Mary Lauterbach, whose daughter, Lance Corporal 
Maria Lauterbach, was murdered at Camp Lejeune after reporting 
a rape, testified about the warning signs indicating Maria 
needed protection after reporting the crime that had been 
missed by the Marines, and how her daughter regretted reporting 
the rape.
    I note that today we will be hearing testimony from Ms. 
Lauterbach's attorney, who is going to provide us with further 
insight into the experience he has had with working with the 
military in the aftermath of the Lance Corporal's death.
    The traumatic experiences of victims and their first-hand 
experiences with the military's sexual assault response 
programs provide invaluable insight and oversight into the 
challenges facing SAPRO, and they highlight the areas that the 
office needs to better address. During our earlier hearings, we 
also heard from the Government Accountability Office on its 
findings and recommendations for SAPRO to improve the training, 
response, accountability and oversight of the programs. GAO 
reported that despite some DOD progress on sexual assault 
response, significant problems remain that could discourage or 
prevent some service members from using the program when 
needed.
    Today we welcome GAO back to give us the details of their 
newest report that is being released today. It follows up on 
the original recommendations. Today we will also hear from a 
distinguished panel of other experts who will answer the 
fundamental question of this hearing: are we making the 
progress necessary to effectively address the problem of sexual 
assault in the military?
    Along with the GAO, we welcome representatives of the 
Defense Task Force on Sexual Assault in the Military Services. 
This congressionally mandated Task Force just completed a 16-
month review of all matters related to sexual assault in the 
military. The Task Force report contains extensive 
recommendations for the Secretary of Defense, the Service 
Secretaries, SAPRO, Congress and others. Representatives of the 
Department of Defense will be on hand to report on related 
efforts over the last several years, as well as plans for 
continued efforts to eliminate sexual assaults from our 
military. Our society must assure that we do a better job of 
preventing these terrible crimes, providing care for victims 
and assuring that perpetrators are brought to justice. The 
military context, where we consciously create a separate 
society designed to ensure our national defense only magnifies 
our obligation to prevent sexual assault. We hope to hear today 
that the Department of Defense has made significant progress in 
correcting the problems that we have heard about the last 2 
years.
    It should be crystal clear to the Department by now that 
Congress is conducting oversight and watching this. We are 
going to continue to monitor the progress that is being made, 
although I hope, as I said, not to make this a career. We are 
hoping at that point we will be able to turn this over with the 
guidance of all the entities that are set up for this, be able 
to continue on, have the proper oversight, and maybe just by 
reports back in we may obviate the need for any more hearings 
on this.
    We all share responsibility to our men and women in uniform 
to do everything that is necessary to protect them from these 
crimes. So we continue that work today, we will continue it as 
necessary for the future. Again, I want to thank all of you for 
being here to offer us assistance on that.
    At this point in time, I would defer to Mr. Flake for his 
opening comments.
    Mr. Flake. I thank the chairman. Because of votes, I won't 
take long. I will submit this statement for the record, but 
just welcome you all here. I joined the subcommittee after the 
first series of hearings were held, so this is my first 
exposure to it. I look forward to learning from all of you on 
both panels.
    I thank the chairman.
    Mr. Tierney. I don't see Mr. Turner here just yet, so we 
will wait for his statement when he arrives.
    This is a longstanding practice of this committee, to swear 
in witnesses, so I ask that all of the people who will be 
testifying to stand please and raise your hands.
    [Witnesses sworn.]
    Mr. Tierney. Thank you very much. Let the record please 
reflect that all of the witnesses answered in the affirmative.
    I will just identify the members of the panel before we get 
started, so we will get that done, at least, before the 
interruption here.
    Ms. Brenda Farrell is the Director of Defense Capabilities 
and Management in the Government Accountability Office. In that 
capacity, she is responsible for military and civilian 
personnel issues, including related medical readiness issues. 
She previously served as an Acting Director for the GAO's 
Strategic Issues team and holds a B.A. from the University of 
Louisville and an M.S. from the Industrial College of the Armed 
Forces.
    Mr. Randolph Hite is the Director of Information Technology 
Architecture and Systems Issues in the Government 
Accountability Office. In that capacity, he is responsible for 
auditing GAO's IT work at the Departments of Defense, State, 
Homeland Security and Justice. Mr. Hite has also examined the 
work that the Department of Defense has done on the 
congressionally mandated Defense Sexual Assault database. He 
holds a B.B.A. from James Madison University.
    My understanding is that Ms. Farrell will do the testimony 
for both, but both are available for questioning on that.
    Dr. Louis Iasiello currently serves as co-chairman of the 
Defense Task Force on Sexual Assault in the Military Services. 
He is a retired Rear Admiral in the U.S. Navy, having served 
for 25 years in a number of distinguished positions. From 2003 
until his retirement in 2006, Dr. Iasiello served as the Chief 
of Naval Chaplains. He holds a Ph.D. from Salve Regina 
University.
    Brigadier General Sharon Dunbar serves in the U.S. Air 
Force and also is a member of the Defense Task Force on Sexual 
Assault in the Military Services. She currently serves as the 
Director of Force Management Policy, and is the Deputy Chief of 
Staff of Manpower, Personnel and Services at the U.S. Air Force 
headquarters. General Dunbar previously served as a member of 
the Defense Task Force on Sexual Harassment and Violence at the 
Military Service Academies. She holds a B.S. from the U.S. Air 
Force Academy. My understanding is that you will be splitting 
your testimony half and half, is that correct?
    Admiral Iasiello. Right.
    Mr. Tierney. Dr. Kaye Whitley currently serves as the 
Director of Sexual Assault Prevention and Response Office 
[SAPRO]. In that capacity, she develops policy and programs to 
improve sexual assault prevention efforts, enhance victim 
support and increase offender accountability. Dr. Whitley 
previously served as the Senior Director of Communication in 
DOD's Defense Prisoner of War and Missing Personnel Office. She 
holds a Ph.D. from the George Washington University and, 
Doctor, this is a return visit for you. Thank you for joining 
us.
    Ms. Gail McGinn is the Deputy Under Secretary of Defense 
for Plans, a position that she has held since 2002. In that 
capacity, she is responsible for developing integrated 
evaluation processes to measure the success of personnel 
programs. Ms. McGinn previously served as the Principal Deputy 
Assistant Secretary of Defense for Force Management Policy and 
as the Principal Director for Personnel Support, Families and 
Education. Ms. McGinn holds a B.A. from William Smith College, 
and a Master's in Education from Boston University.
    We again thank all of you for joining us here this morning. 
Having sworn in everybody, we will start our testimony and go 
as far as we can. Usually, when the sounds goes off, as most of 
you know, we still have about 15 minutes before we have to 
vote. So we will let it go a little bit over on that and then 
break.
    Ms. Farrell, if you would be kind enough?

      STATEMENTS OF BRENDA S. FARRELL, DIRECTOR, DEFENSE 
CAPACILIBITES AND MANAGEMENT, GOVERNMENT ACCOUNTABILITY OFFICE, 
ACCOMPANIED BY RANDOLPH HITE, DIRECTOR, INFORMATION TECHNOLOGY 
  AND ARCHITECTURE SYSTEMS, GOVERNMENT ACCOUNTABILITY OFFICE; 
   LOUIS IASIELLO, CO-CHAIRMAN, DEFENSE TASK FORCE ON SEXUAL 
  ASSAULT IN THE MILITARY SERVCIES, ACCOMPANIED BY BRIGADIER 
GENERAL SHARON K.G. DUNBAR, USAF, MEMBER, DEFENSE TASK FORCE ON 
    SEXUAL ASSAULT IN THE MILITARY SERVICES; KAYE WHITLEY, 
DIRECTOR, SEXUAL ASSAULT PREVENTION AND RESPONSE OFFICE, OFFICE 
  OF THE SECRETARY OF DEFENSE; AND GAIL MCGINN, DEPUTY UNDER 
            SECRETARY--PLANS, DEPARTMENT OF DEFENSE

                 STATEMENT OF BRENDA S. FARRELL

    Ms. Farrell. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity for Mr. Hite and me to be here 
today to discuss our work to evaluate DOD and the Coast Guard's 
oversight and implementation of their respective sexual assault 
prevention and response programs. Our written statement 
summarizes the findings of a report that we are issuing 
concurrently with today's hearing. It builds upon our previous 
work related to sexual assault in the military services.
    This is the third time you have asked GAO to testify on 
this important subject. And your ongoing attention to this 
subject has significantly contributed to the broader 
congressional efforts to raise the awareness of and 
accountability for sexual assault in the military services.
    Our main message today is that DOD and the Coast guard have 
taken a number of positive steps to increase program awareness 
and to improve their prevention and response to occurrences of 
sexual assault. But additional actions are needed to strengthen 
the programs.
    Sexual assault is a crime with far-reaching negative 
impacts on the military services, in that it undermines core 
values, degrades mission readiness and esprit de corps, 
subverts strategic goodwill and raises financial costs. Since 
we reported on the implications in 2008, DOD reported nearly 
3,000 alleged sexual assault cases. It remains impossible to 
accurately analyze trends or draw conclusions from this data, 
because DOD and the Coast Guard have not yet standardized their 
reporting requirements.
    Our written statement is divided into three parts. The 
first addresses the steps that DOD has taken to implement our 
August 2008 recommendations regarding the oversight and 
implementation of its programs. To its credit, DOD has 
implemented four of the nine recommendations in that report. 
For example, DOD evaluated Department program guidance for 
joint and deployed environments. And it evaluated factors that 
may hinder access to health care following a sexual assault 
incident.
    But DOD's actions to address the other five recommendations 
reflect less progress. For example, a key recommendation was 
that DOD develop an oversight framework, which they have. 
However, we found that the draft framework lacks key elements 
needed for effective strategic planning and successful 
implementation, such as criteria for measuring progress to 
facilitate program evaluation and identify areas that may need 
improvement.
    The second part of our statement addresses the steps DOD 
has taken and still needs to take to establish a centralized 
sexual assault incident database. DOD did not meet the 
legislative requirement to establish the database by last 
month. It is unclear when the database will be established, 
because DOD does not yet have a reliable schedule to guide its 
efforts.
    Also, system acquisition best practices associated with 
successfully acquiring and deploying information technology 
systems, such as economically justifying the proposed system 
solution, and effectively developing and managing requirements, 
have largely not been performed.
    Third, the last part of our statement addresses the steps 
the Coast Guard has taken to implement our August 2008 
recommendations for further developing its sexual assault 
prevention and response program. The Coast Guard has partially 
implemented one of two GAO recommendations. It has not 
implemented the other.
    The Coast Guard began assessing its program staff's 
workload in June 2009, which represents progress for staffing 
key installation level positions. But it has not addressed our 
recommendations to develop an oversight framework.
    In summary, Mr. Chairman, while the progress DOD and the 
Coast Guard have made is noteworthy, their efforts have not 
fully established sound management frameworks that include a 
long-term perspective and clear lines of accountability, all of 
which are needed to withstand the administrative, fiscal and 
political pressures that confront Federal programs on a daily 
basis.
    Further, successful program implementation will require 
personal involvement of top leadership in order to maintain the 
long-term focus on and accountability for program objectives. 
Without such support, DOD and the Coast Guard programs will not 
be able to maximize the benefit of their respective 
initiatives, and they may not be able to effect the change in 
military culture that is needed to help ensure that their 
programs are institutionalized.
    Mr. Chairman, that concludes our opening. Mr. Hite and I 
will be happy to take questions when you are read.
    [The prepared statement of Ms. Farrell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Tierney. Again, thank you very much. We couldn't have 
done the work that was done without GAO's good assistance and 
help on this, and we appreciate it.
    Doctor, we are calling you, I assume, because that trumps 
Admiral? Dr. Iasiello, please.

         STATEMENT OF LOUIS IASIELLO AND SHARON DUNBAR

    Admiral Iasiello. Chairman Tierney, Ranking Member Flake, 
distinguished members of the subcommittee, thank you for this 
opportunity to present the work of the Defense Task Force on 
Sexual Assault in Military Services.
    As co-chairs, we are honored to be here to discuss the 
recommendations and findings of the Task Force and the staff. 
Given the fact that our formal statements have been forwarded 
to you, we will keep these opening comments short and brief.
    As regards our authority, Congress directed the Task Force 
in its 2005 Defense Authorization Act, and it was established 
by the Secretary of Defense in August 2008.
    The Task Force employed an extensive methodology, employing 
both quantitative and qualitative measures. Over a period of 15 
months, we visited 60 installations, CONUS, OCONUS and in the 
AOR, interviewing 3,500 individuals, 61 victims, senior 
military and civilian Department of Defense leadership, sexual 
assault response coordinators and their supervisors, victim 
advocates, first responders, medical personnel, legal 
personnel, pastoral care providers, the chaplains, military 
police, and the Department of Defense's criminal investigative 
services. We reviewed hundreds of their criminal investigative 
reports, as well as all prior reports on sexual assault leading 
up to our work. At the completion of our work, we submitted the 
report to the Secretary of Defense on the 1st of December 2009.
    The Task Force focused its work in three distinct yet 
interrelated areas, that of victim response, prevention and 
training, and accountability and strategic oversight. First 
off, the report recognizes the progress made by the Department 
of Defense in victim response, since it inaugurated its Sexual 
Assault Prevention and Response Program in 2005. We believe 
that the recommendations contained in the Task Force report 
will significantly improve programs in this critical area.
    Next in the area of strategic direction, the Task Force is 
recommending that the Deputy Secretary of Defense take 
responsibility for SAPRO for a period of at least 1 year, and 
until the Secretary of Defense apprises Congress that the SAPR 
office is meeting its established goals. We recommend that the 
SAPR program be given a more permanent complexion in the 
Department of Defense. The Department of Defense needs to 
communicate the message that the SAPR program is here to stay, 
and illustrate that resolve through designated funding for SAPR 
funding in its DOD budget process.
    The Task Force recommends that the organizational design, 
personnel and mission of the DOD SAPR office be revised to 
strategically lead the Department of Defense in this critical 
area. We recommend the establishment of a uniform SAPR 
terminology and core structure to be implemented across service 
lines. The Task Force recommends the professionalization of 
victim advocates to ensure for qualified personnel with 
national certification. And we recommend that sexual assault 
and response coordinators are Department of Defense civilians 
and/or uniform personnel in the Department of Defense.
    The Task Force recommends the development of program 
standards and subsequent metrics which will enable the 
Department of Defense to more accurately measure the heath of 
the SAPR programs. And finally, in this area of strategic 
direction, the Task Force is strongly recommending funding for 
SAPR research in collaboration with civilian experts throughout 
our great country, such as those found in the world of academia 
and our advocacy groups which work so hard in this area, and 
other Federal agencies.
    Now I would like to turn the mic over to General Dunbar.
    General Dunbar. Mr. Chairman and other distinguished 
members of the subcommittee, as we have submitted our statement 
for record, I will continue to provide brief remarks. Over the 
course of our 15 months, there were several trends that 
emerged. The first is that prevention of sexual assault needs 
to be the No. 1 priority. Second, response to victims has 
demonstrably improved, but more improvements need to be made in 
that area. There needs to be much greater consistency among the 
services, given deployed operations, joint basing and other 
joint operations, as well as greater consistency among the 
active component and the Reserve and Guard components.
    Given the nature of time that we had to conduct our review, 
we were not able to conduct extensive analysis of what is 
existing in the Guard and Reserve components at the unit level 
or the State level. So we recommend that the Secretary of 
Defense undertake additional review in that area.
    Then as the GAO had indicated, on the data aspect, we 
really do believe that there needs to be greater consistency, 
reliability of the data in order for us to be able to do trend 
analysis and be able to continue to improve the program.
    Finally, we believe that the SAPRO office, while it was 
initially established with response to victims in mind, needs 
to be extensively expanded in order to address more effectively 
prevention as well as the data accountability issues.
    On the prevention and training area, as I mentioned, we 
believe that prevention is the No. 1 priority, because that is 
absolutely key in order to be able to prevent sexual assault 
from occurring in the first place. We are advocating that there 
needs to be a much greater comprehensive strategy. I think the 
DOD has done a great job in terms of establishing bystander 
intervention training. But we would state that the training, 
and essentially the strategy, needs to be much more than 
bystander intervention, to include community awareness, to 
include the partnership, building partnership capacity with our 
communities, with academia and addressing the issue.
    In the training area, we are advocating much more than the 
rote training that takes place. We would propose that there 
needs to be training along a continuum that addresses not just 
the first responders, but those in leadership, from the 
commanders as well as the senior enlisted and our civilians, 
that training occur over the course of an individual's career.
    Also, the training needs to be geared toward just 
generating greater awareness and appreciation for the incidence 
level of sexual assault, debunking many of the myths that 
continue to prevail, not just within the military but within 
society as well, addressing risk factors, victim and 
perpetrator factors, as well as risk mitigation strategies.
    We would also advocate specialized and recurring training 
for those that are extensively involved in providing the 
response to our victims. And then in the victim response area, 
a couple of key areas that I would address would be that we 
need to try to provide greater care for the victims. Many of 
them, as you had indicated, Mr. Chairman, have expressed dismay 
over the treatment that they receive. I think that much can be 
done in terms of providing greater response to them, from 
professionalizing the victim advocates that we have to 
providing them with legal assistance up front, so they know 
they can have a conversation that will provide them with 
confidentiality, to also being able to confide in a peer or 
trusted agent as opposed to feeling that their third party then 
will end up being subpoenaed in order to testify against them.
    Then likewise, we would advocate that the individuals who, 
if they decide that they want to opt out of an investigation, 
that the victims be allowed to do so. And last, on the 
accountability, which GAO has addressed fairly substantially so 
I won't get into that, we do believe that there needs to be 
much greater accountability on the data and that we couldn't 
emphasize enough the importance of having the data system up 
and running.
    From the best practices, just to highlight what we believe 
is important, the common theme there is engaged leadership, 
increased awareness and the candid discussion that needs to 
take place at all levels within the DOD. Much of that is taking 
from with the senior leadership down to the unit level. But 
again, much more needs to be done.
    With that, sir, I conclude. Thank you.
    [The prepared statement of Admiral Iasiello and General 
Dunbar follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


    Mr. Tierney. Thank you. I want to thank you both for your 
abbreviated testimony.
    Dr. Whitley.

                   STATEMENT OF KAYE WHITLEY

    Dr. Whitley. Mr. Chairman, Ranking Member Flake and members 
of the subcommittee, thank you so much for inviting me to 
discuss the progress that the Department of Defense has made in 
preventing and responding to sexual assault. Since we provided 
written testimony, I will keep my remarks brief.
    The reason for our commitment to this issue is clear. 
Sexual assault levies a tremendous human toll, disrupts lives 
and destroys the human spirit. While we talk about these 
Department-wide efforts, we should always keep in mind that 
behind each of these numbers, there is an individual whose life 
is changed forever.
    Our policies and programs continue to improve. I would like 
to recognize the collaborative efforts of my DOD colleagues. 
For example, the strategic plan and oversight framework was the 
product of hundreds of hours of collaboration. The activities 
identified in these documents will greatly expand my office's 
efforts, and to that end, we have already begun to restructure 
the SAPRO office, and we will grow from 7 to 21 employees.
    We have received more than 100 recommendations from the 
GAO, the DTFSAMS and our Inspector General. We were already 
working on many of these recommendations. However, others are 
new and they will strengthen and expand our program.
    We are working with nationally known experts in the 
civilian communities and premier civilian organizations and 
State coalitions to improve our prevention and response 
efforts. Further, we are members of an interagency group led by 
the White House Office on Women and Girls to explore ways that 
all Federal agencies can work together to prevent interpersonal 
violence in society, as well as in the military.
    I would like to thank my leadership, especially Ms. McGinn, 
and our staffs for their dedication. We also want to express 
our appreciation to all of the SAPR staffs around the world, 
not just in the Pentagon, who work every day on this program. 
It is because of their efforts that we have implemented many of 
the things in our new program.
    We believe that we have made great strides in training. We 
have to train more than 2 million service members, and then we 
have to train a huge cadre of professionals to respond to 
sexual assault, even sexual assault response coordinators, 
victim advocates, chaplains, commanders, trial counsel, 
investigators. So training all of those responders around the 
world is a big task.
    Your oversight is key to our progress, and also working 
with the GAO and the members and staff of the DTFSAMS has been 
a pleasure. Throughout this process, we have all worked very 
closely together, because we all want to make the military a 
better place for those who serve to keep us safe.
    Our task is daunting, and we recruit from a society where 
sexual assault is one of the most under-reported crimes. And we 
do understand that there is more to do, and we will welcome 
your continued attention and oversight. Thank you for your 
support.
    [The prepared statement of Dr. Whitley follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Tierney. Thank you, Doctor.
    Ms. McGinn.

                    STATEMENT OF GAIL MCGINN

    Ms. McGinn. Mr. Chairman, Ranking Member Flake, other 
members of the subcommittee, I too thank you for the 
opportunity to appear before you today to discuss the 
Department's progress in addressing the crime of sexual 
assault. I also submitted a long testimony for the record, so 
this will be very brief.
    But the answer, I think, to the question posed by this 
hearing, are we making progress, is yes. We are making 
progress, but we are certainly not at the finish line. We won't 
be at the finish line until we have eliminated sexual assault 
in the armed forces.
    In 2008, we had over 2,900 reported assaults. And we know 
from survey results that this is only a portion of those that 
reportedly occurred. Only about 20 percent of service members 
who experience unwanted sexual contact report the matter to a 
military authority. So indeed, we need a strong prevention 
strategy, an effective training strategy and potent measures to 
ensure that we are heading in the right direction.
    I understand that some of this is uncharted territory. 
Thus, we want to work with the right experts and in concert 
with the military departments to advance our knowledge as we go 
forward.
    I was pleased to see that the Defense Task Force on Sexual 
Assault in the Military Services emphasized service culture. 
For indeed, we need a culture that extends the concept of 
watching out for your buddy in danger on the battlefield to 
watching out for your buddy in danger of sexual assault. This 
was the theme of our last prevention strategy, and one that we 
need to constantly emphasize.
    But we have made progress. In 2005, when we established the 
Sexual Assault Prevention and Response Office, we believed we 
needed a small policy office to formalize instructions we had 
issued, identify new policy concerns and address them, and 
evaluate implementation, kind of a standard policy model for 
us.
    Over the ensuing years, in conversations with the Congress, 
this subcommittee, the GAO and the Task Force, it became clear 
that the Office needed to expand its mission and thus become 
more robust. Dr. Whitley, who you just heard from, has done a 
great job managing that expansion with advancements coming in 
investigator and trial counsel training, the development of our 
congressionally directed database, initiation of the first 
Department-wide prevention effort, and development of a 
strategic plan and oversight framework. Indeed, we welcome the 
reports of the Task Force and the GAO as we continue to refine 
our approach and determine further steps.
    Today, leadership support of our efforts has never been 
stronger. It begins with the Secretary of Defense and the 
Chairman of the Joint Chiefs and continues with the dedicated 
efforts of our service secretaries and senior military 
leadership. The military departments are making every effort to 
ensure that every service member knows that sexual assault is 
unacceptable and to assure that there is help for victims as 
they need it.
    Just last week, we welcomed our new Under Secretary for 
Personnel and Readiness, Dr. Clifford Stanley, to the 
Department. He has indicated that he is also determined to 
advance our efforts in this regard.
    So in closing, let me thank the subcommittee for your 
support of this very important program. I am happy to answer 
any questions you may have.
    [The prepared statement of Ms. McGinn follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Tierney. Thank you very much.
    Thank all of you for helping us frame the issue here. We 
are going to take about a 20 minute break for votes and be back 
at that point in time. Thank you.
    [Recess.]
    Mr. Tierney. Thank you for your forbearance.
    Mr. Turner, you had wanted an opportunity to give a brief 
opening statement, and now might be a good time for that, if 
you would.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank you 
for your continued focus and effort here.
    I also want to thank Jane Harman for her career-long focus 
on this. We have had the good fortune to work with Jane on a 
number of issues.
    As some of you know, my initial interest in this came about 
by the unfortunate murder of Maria Lauterbach, who is from my 
community. That brought to light several issue as to how rapes 
are handled within the command and for the victim. So I have 
worked with a number of members on issues where we have tried 
to find ways to change both laws and to work with DOD on ways 
that we can enhance the protection to victims and also find 
ways to provide them additional support.
    This report is, I think, an excellent report for a basis to 
begin the process of looking at additional ways that we can 
support victims. I want to focus on one aspect, an item that I 
know is important to all of you, and that is the issue of 
culture. Almost in every sexual assault hearing that I go to, I 
read this provision of an answer that I got as a response to 
questions that I had submitted concerning Maria Lauterbach. 
General Kramlich of the U.S. Marine Corps was responding to a 
series of questions that I had posed with respect to the Maria 
Lauterbach case. And a number of statements were made through 
DOD and the Marines that I found troubling. One of those was 
they had indicated that they had no notice that Maria 
Lauterbach might be at risk, because there had been no violence 
that had been alleged in the allegations of what had occurred 
to her.
    So I wrote a question of, doesn't a rape accusation 
inherently contain an element of force or threat? The answer 
that I got back was that in May 2007, when Lauterbach formally 
made allegations of rape against Laurean, the command was only 
made aware of two reported sexual encounters, one sexual 
encounter characterized as consensual by Lauterbach and the 
other alleged to be rape. Lauterbach never alleged any violence 
of threat of violence in either sexual encounter.
    Now, the reason why I read that in every hearing, because 
when we have the issue of culture, I would hope that throughout 
DOD, no one would ever write again that any sexual assault 
could not have an allegation of violence or threat of violence. 
Because as we all know, it is inherent in the sexual assault 
itself.
    So with that, Mr. Chairman, I thank you for bringing the 
spotlight to this. I know that we all have a lot of work to do, 
and we appreciate the work that you are undertaking.
    [The prepared statement of Hon. Michael R. Turner follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Tierney. Thank you. We will begin the questioning, if 
nobody has any objection to that.
    Dr. Whitley, back in August 2008, we had a report from the 
Government Accountability Office, which made nine 
recommendations to improve the Department's Sexual Assault 
Prevention and Response programs. Today's report from the GAO 
states that you have implemented only four of those 
recommendations, and two of those four were actually addressed 
by non-SAPRO Task Forces.
    So can you explain to us why some 18 months after the 
report came out, such a small percentage of those nine 
remaining objectives have been dealt with effectively?
    Dr. Whitley. We may have actually addressed more since 
then. I could probably answer the question better if we talked 
specific recommendations.
    I know one thing that was of particular interest to you, 
sir, was the oversight framework and the strategic plan. We 
have completed that. I did take it, per your suggestion, to Ms. 
Farrell and give her a briefing on it. They made suggestions. I 
went back and took their edits and their suggestions. That has 
been completed and we have already begun some implementation. 
We are still waiting for it to be signed on by the new Under 
Secretary.
    Mr. Tierney. Ms. Farrell, of the five that were unaddressed 
at all of your recommendations, can you prioritize those for 
us?
    Ms. Farrell. Certainly. I would like to focus on the 
oversight plan. We do appreciate the cooperation that we 
received from DOD by sharing the draft framework with us during 
our review, so that we could see it and analyze it and comment 
on it. They should be given credit for laying a foundation for 
their oversight framework, which is quite a challenge. But that 
oversight framework, strategic plan, whatever you want to call 
it, based on our body of work, looking at best practices of 
successful organizations that are results-oriented, there are 
identifiable key elements that you would want to see in the 
oversight framework, which we noted in the August 2008 report.
    At a minimum, you want clear goals, objectives, milestones 
and performance measures. Performance measures are very key for 
that road map. As I mentioned in the opening, performance 
measures are necessary to gauge where you are as you are headed 
toward your goal, and to measure and make a course change, if 
necessary. That is one of the key elements that is missing in 
that oversight framework, is the performance measurement.
    Another that we discussed with DOD back in November, before 
we sent the draft report over with the recommendations that we 
would like to see is once you have the performance measures, 
you need strategies of what you are going to do with the 
results once you get them in order to make those course 
corrections.
    Another element we would like to see is tying the program 
objectives with budget priorities. This is very key, because 
that will help DOD to support justification for any resources 
that they need, whether it is personnel or funding.
    Last, there were three documents that DOD provided to us 
during the review. And sometimes you will have one 
comprehensive strategic plan, sometimes there are multiple 
documents. That is fine. We do not take issue with how many 
documents they have that comprise their strategic framework.
    But with the three documents provided to us, it was 
difficult to tell how they complemented each other. Two of the 
documents had five objectives that did match up. But then the 
oversight framework that they discussed with us and provided to 
us that was responding to our recommendation had nine 
improvement initiatives that we could not correlate back. So it 
is still not clear to us what that oversight framework that 
they provided to us, where that fit with the other documents 
that comprised their strategic planning.
    Mr. Tierney. Dr. Whitley, is that helpful? Is that 
something you can work with Ms. Farrell and correct?
    Dr. Whitley. Absolutely. We did take the plan back, after 
my meeting with her, and we developed a user guide. We also 
have requirements in the Department to have a strategic plan. 
It would be confusing to someone looking at three documents. We 
have to align ours with the Personnel and Readiness plan and 
the Secretary's plan. We also had to go back and refit all of 
that.
    Then the oversight framework, we hung that, if you will, on 
our strategic plan and saw that as part of our oversight. We 
see our role as prevention, victim care and response. And then 
our role is system accountability. That is where we hung the 
framework. I think now we have made it more user friendly. We 
have also developed measures.
    One of the things that we talked about at the last hearing, 
our civilian and Federal partners all struggle with finding the 
best measures for sexual assault. Because as you know, you 
can't use reports, because it so under-reported. So we are 
looking at ways now to measure prevention and response. We are 
able to get at least four or five measures in the P&R strategic 
plan. We are going to measure awareness, we are going to 
measure victim satisfaction, and we are developing surveys. It 
is a challenge, and there are not many models out there.
    Mr. Tierney. It seems to me that you have a good working 
relationship with GAO, and I appreciate that. So I am trusting 
that you will be able to continue that and resolve those 
issues. I think they provide value added to you and are a 
resource for you. So I appreciate that you are working with 
them and being open about it. We will expect that those things 
will be resolved.
    Ms. McGinn, just before my time is up, how are you aligning 
the resources to this, the money, so people will know that we 
are serious about it and it is going to get funded 
appropriately? And two, the General made a good point: are you 
going to be able, at the Department of Defense, to undertake a 
review of the Guard and Reserve at the State and unit level?
    Ms. McGinn. We have just recently, I think it was last 
year, established program element codes. Into those program 
element codes the military services put their money that they 
have dedicated to this program, so that we have visibility over 
it, and we can see that it is in there and it is not being cut 
or it is growing or whatever. I think in fiscal year 2010, 
there is about $110 million so far that the service had 
identified.
    In addition to that, we have succeeded in getting 
additional funding for the Sexual Assault Prevention and 
Response Office, $20 million, to help with our outreach 
efforts, our oversight efforts with the development of the 
database and those kinds of things. So one, we are watching the 
money and two, we are actively engaging in the budget process 
to try to find more money where necessary for it.
    We absolutely believe we need to look harder at the Guard 
and Reserve. We are looking at ways that we might do that. We 
do have a yellow ribbon program, as you know, that works with 
the Guard and Reserve, and we are involving the Guard and 
Reserve in our various oversight committees. We agree with that 
recommendation. We will take action on that.
    Mr. Tierney. Mr. Flake.
    Mr. Flake. Thank you.
    Brigadier General Dunbar, you mentioned in your testimony 
that things were improving. I just wasn't quite clear as to if 
you are referring to fewer incidents of abuse, and how would 
that be measured, or that the plan being implemented, that is 
improving in speed. Can you qualify that statement? Maybe I 
heard it wrong, but you mentioned something like that.
    General Dunbar. In terms of improving, what I am referring 
to is that the program focus certainly within the services, the 
leadership attention that is being given to it from the 
Chairman of the Joint Chiefs of Staff to the service 
secretaries and service chiefs, down to in some locations, not 
universally all locations, unit commander involvement in 
addressing the issue. From the SAPRO standpoint, I think since 
2005, the establishment of restrictive reporting, which I think 
a lot of commanders were very reluctant to embrace, now many 
people are seeing that as very good because more victims are 
coming forward, those victims who wouldn't have come forward 
had they not had that restrictive reporting option.
    So I think awareness is growing and appreciation for a lot 
of the mechanisms, thanks to Congress' oversight, and thanks to 
the continued emphasis. We are having folks come on board, 
people are accepting the fact that sexual assault does occur 
with the military services and it needs to be addressed.
    So from a program standpoint, response has increased, even 
in the prevention area, which we were initially finding 
lacking. The fact that the DOD SAPRO office is really working 
the bystander intervention, all the services are addressing 
that. That is positive progress. But at the same time, one of 
the concerns that we have is that bystander intervention is not 
the be all, end all in terms of a comprehensive prevention 
strategy, and that more needs to be done.
    So progress, but still more to be done.
    Mr. Flake. Can somebody tell me, over the past, say, 2 
years, have the reported cases of sexual abuse gone up or down?
    Dr. Whitley. We have had approximately 3,000 reports each 
year. We will be releasing our fiscal year 2009 report on March 
15th. We already know the numbers have gone up slightly. We 
want people to report. That is our goal.
    Mr. Flake. My next question is, certainly the 
recommendations include increased awareness and education, and 
with that comes reporting requirements. Recognizing that part 
of the improvement is getting more people to come forward, are 
there metrics then to gauge whether we are improving or not in 
terms of incidence of sexual abuse, independent of how many are 
reported?
    Dr. Whitley. We are developing a survey with the Defense 
Manpower Data Center to ask people on the survey if they have 
experienced unwanted sexual contact and if they have reported 
it. One statistic I do have since we have had restrictive 
reporting, starting in the middle of June 2005: we have had 
over 2,600 people use the restrictive option reporting. So that 
is data that tells me that is something that we should continue 
and that is a good option for us in reducing barriers to 
reporting. We are working on other ways to measure the 
prevalence of sexual assault.
    Even in society, statistics show us that only about 18 to 
20 percent of victims report to an authority. So it is vastly 
underreported. So what we are doing in our program is we are 
trying to remove the barriers that keep people from coming 
forward and to try to build climates of confidence and to 
reduce stigma. We want to reduce stigma for any type of mental 
health that people are seeking.
    Mr. Flake. Thank you.
    Mr. Tierney. Mr. Turner, you are recognized for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    After you all testify, there will be a gentleman who is 
testifying whose name is Merle Wilberding, who is an attorney, 
who has worked with the Lauterbach family, and has worked with 
my office on some of the legislation that we have sponsored on 
issues such as military protective orders, ensuring that they 
don't expire, and also that local jurisdictions are notified. 
Because actually in Marla Lauterbach's case, the local 
jurisdiction did not know that a military protective order had 
been put in place. We changed that in legislation with the 
National Defense Authorization Act.
    In addition to representing them, I just want to give you 
one fact about his legal career. As an Army JAG captain, he was 
assigned the responsibility to represent the Government in the 
Lieutenant Calley appeal of his conviction in the infamous My 
Lai massacre. So he has a little bit of information on the 
inside, in addition to representing this family.
    In his testimony, one of the things he is going to 
highlight is the issue of the victim advocates. He is going to 
lay out the case of whether or not people feel that system is 
responsive. And then he has a recommendation that perhaps 
victim advocates need to establish a line of authority outside 
the base chain of command. I wondered if you all might comment 
on that, having looked at the issue through your Task Force. 
That is not something that you have recommended. But I would be 
interested to get your thoughts on that.
    General Dunbar, why don't we start with you?
    General Dunbar. Congressman Turner, one of the things that 
we did recommend was to provide some confidentiality with the 
victim advocates. Because in the statistics that we saw, 
approximately 78 percent of the attorneys who were prosecuting 
cases had indicated that they would, or in the defense, would 
subpoena victim advocate records. So when you know that you 
have victims who we tell to go to a victim advocate to seek the 
care and yet, at the same time, know that they are vulnerable 
to having whatever they disclose be used against them, that is 
not what we consider to be providing adequate victim support.
    We do think that you can establish a system that allows the 
victim advocates to have that confidentiality and still have 
them within the military structure as opposed to going outside 
of a military reporting machine.
    So in answer to your question, we did not explore 
specifically the proposal that you have outlined. But we 
recognize the importance of victim advocates and the care that 
they provide, and realize that we have a deficiency as it 
currently is set up.
    Mr. Turner. Do you have an opinion on that issue, on his 
recommendation?
    Dr. Whitley. Well, sir, as I said, I do believe that we can 
cure the issue without having to have the victim advocates 
report outside the chain of command. There are a variety of 
options I think that exist.
    Mr. Turner. Anyone else wish to comment on the issue of 
chain of command?
    Ms. McGinn. If I could?
    Mr. Turner. Yes.
    Ms. McGinn. I think, we want commanders to be involved, and 
to be proactive and to be advocates and to help solve these 
problems. I think there could be a little bit of danger taking 
this outside the chain of command, that you would create a 
space where the commander wouldn't know what was going on, 
would not be involved, and would set up almost a conflicting 
relationship. So I would just caution that I think we want 
commanders, as I said, to be involved in this process and to 
understand their responsibilities and to respond correctly.
    Mr. Turner. General.
    General Dunbar. If I could just add, I think the issue, 
especially in our review as we looked at restrictive reporting, 
we have found that the commanders, if they know that certain 
restrictions exist, they respect those restrictions. So whether 
it is within the chain of command, if a victim advocate were 
granted confidentiality, I think a commander would jeopardize 
his or her position by trying to pry information out of a 
victim advocate.
    So that is basically why I think we have options that we 
can work within.
    Admiral Iasiello. If I may weigh in on this, too, we found 
one of the issues, access to a commander, is critical for the 
health of the program. So with the Sexual Assault Response 
Coordinators, when they had that access with their commanders 
and were able to voice their concerns and bring issues before 
them, we felt that they were very successful in what they were 
trying to do.
    When they had two or three levels of bureaucracy that they 
were trying to deal with, their effectiveness as response 
coordinators was significantly diminished. That is why the use 
of contractors as Sexual Assault Response Coordinators was one 
of our recommendations. We think that access is critical. It is 
not only important to the program, but as many people have 
mentioned, the commander sets the tone. And the commander 
really needs to know what is going on in his or her command.
    Mr. Turner. With the chairman's indulgence, the reason why 
I find it an important recommendation is because in the 
military, the situation is so unique in that the military in 
effect has a custodial relationship with the victim, where they 
can't get up and leave. They are told where they are to be. You 
don't have the same freedom of movement that you would have if 
you were a victim in the private sector.
    And then to have what is ultimately up the chain of 
command, your boss, having the same people reporting to you 
that are supposed to be aiding you, the inherent conflicts of 
interest are just obvious as to how they could arise. So I do 
think it is something for us to have more discussion on. Thank 
you, Mr. Chairman.
    Mr. Tierney. Thank you.
    Ms. Harman, we want to welcome you to the subcommittee, and 
thank you for your interest in this subject, and your 
leadership on it, and welcome you to give us 5 minutes of 
questioning, if you would.
    Ms. Harman. Thank you, Mr. Chairman. I appreciate the fact 
that this subcommittee on a bipartisan basis has held four 
hearings on this subject. There is intense concern from 
Congress about what I would call an epidemic of assault and 
rape in the military, which I view as both a moral problem and 
a force protection problem.
    And at a time when the public looks at Congress and thinks 
we can't do anything together, I hope everyone was listening 
up. I think both sides of the aisle in this subcommittee are 
equally concerned. I know, Mike, that the Lauterbach family is 
very lucky to have you as their representative. You have been 
passionate about this issue, which is something we all need to 
be.
    On that point, only one of you, and that was Dr. Whitley, 
mentioned in personal terms the toll that rape and assault 
takes on people. Dr. Whitley said it changes a human being's 
life forever. And it may terminate some human beings' lives, as 
in the case of Maria Lauterbach. So I think we have to keep 
that in mind. It is not just a question of statistics and 
strategies and milestones and goals. This is a deeply personal 
issue. It is a violation of one's physical space and as I guess 
the only woman member sitting up here, I want to say how 
strongly I feel about this and how urgently we have to fix 
this.
    I guess my message and my questions today are focused on 
prevention. It is good to, you have all heard me say this in 
the past, it is good to be better at response and better at 
victim care. I applaud you for trying to do that. And it is 
good to coordinate the statistics and create more comfort for 
victims to come forward. All of that is important.
    But wouldn't it be better if we didn't have victims? Let's 
get a sense of the proportion of this. In August 2007, I went 
to the West Los Angeles VA, where there is a women's clinic. I 
was blown away to hear that 41 percent of the female veterans 
they see are victims of military sexual trauma, and 29 percent 
were raped. Now, this isn't a scientific survey, but I am sure 
those are accurate figures for 3 years ago in the West LA VA. 
And generalizing this to the country gets me to my little sound 
bite, which is, a woman is more likely to be raped in the 
military by a fellow soldier than killed by enemy fire.
    So my question to you is, shouldn't we be doing more about 
prevention? I welcome your response, each of you. And 
specifically, shouldn't we be doing more of what the Army is 
doing with its I Am Strong campaign, by hiring outside 
investigators and prosecutors to teach a team of 300, I 
understand, prosecutors in the Army to do a better job of 
investigating and prosecuting these rapes and assaults, so it 
sends a strong message to people that you cross a red line, 
either as a perpetrator or someone in the chain of command, and 
you pay a big penalty?
    Ms. Farrell.
    Ms. Farrell. Thank you. I would like to note regarding that 
first part, our report does note that not only does sexual 
assault have implications for the individual, but for the 
family, the friends, the colleagues, the whole community 
besides the unique impact, obviously, on the military, that we 
were discussing earlier.
    Regarding prevention, shouldn't that be important, I 
believe all three----
    Ms. Harman. Shouldn't it be more important, more 
emphasized.
    Ms. Farrell. It should be, it is prevention, response, and 
resolution. So I think there has to be emphasis on all three. 
As you know, after SAPRO was established, the emphasis was 
really more on response, taking care of the victims was 
driving. It is just, I think in the last year, and of course, 
DOD can speak to this more, where they have gotten more of a 
handle on the prevention. And that is what we are looking for. 
Again, in the strategy of what are the clear goals of what are 
you trying to accomplish. By having a very clear goal on 
prevention and how you are going to get there, maybe we will 
see this, actually, the numbers go down.
    Ms. Harman. Mr. Chairman, could others just answer my 
question? I know my time is expiring.
    Mr. Tierney. Sure.
    Dr. Whitley. Thank you always for the support that you have 
given this program, Ms. Harman. One of the things, I know the 
Army came out with their I Am Strong campaign, and the 
Department has a DOD-wide strategy. We work very closely with 
the Centers for Disease Control and use their spectrum of 
prevention, which tells us you have to work the strategy at 
every level, from the individual all the way up to policies and 
laws. And we also work with the National Sexual Violence 
Resource Center.
    Each of the services, in fact, the Navy and the Air Force 
each held summits just a few months ago. They brought in their 
highest levels of leadership. I can tell you, in talking with 
some of the generals that were there, and the leaders, they are 
all on board. I think we have a very strong prevention campaign 
and strategy in all of the services now.
    Ms. Harman. If I could add, I had noted that there needs to 
be a greater emphasis on prevention. Having the strategy is 
great, the bystander intervention is one facet of it. But it 
also includes the community awareness and physical safety. For 
instance, when we were over in the AOR, how you actually set up 
a location, where you put the female latrine, where you site 
the female tents, sometimes we have the cultural issues of this 
is the way it has always been done before. Likewise, even when 
you are going through the dormitory or the barracks areas, 
basic security measures. In some of the newer facilities, you 
find that you have the video cameras, surveillance cameras that 
are set up.
    A lot of it is driven by culture. The more awareness that 
we have in addressing the issues, the greater you can provide 
prevention at basic levels. The key to all this is leadership 
involvement. The senior leadership of the services, no doubt, 
are all engaged, as I mentioned, the chairman is engaged. That 
needs to populate down to unit commanders, who have to 
understand that they have to be out front addressing this issue 
on a regular basis, and have candid discussions of the fact 
that sexual assault is not tolerated. And even those things 
continue on to include sexual harassment, that those behaviors 
are not going to be accepted within service in the Armed 
Forces.
    Ms. McGinn. Could I just add one thing about culture, 
because the military culture is created. And we take young 
people off the streets of America and we send them to basic 
training and we turn them into soldiers, sailors, airmen and 
Marines. While it is a more long-term solution, if we look to 
what we already know in terms of how to create soldiers, 
sailors, airmen and Marines, couldn't we also look to how we 
change attitudes and how we inculcate this as a cultural issue?
    I would just to note, I was reviewing service programs in 
preparation for this. I was struck by the fact that the Army, 
for their new recruits, the new recruits receive sexual assault 
training during their reception, during the first week of basic 
training, just prior to their first overnight pass and upon 
advanced individual training entrance. So that kind of emphasis 
I think at the basic training level would go a long way for us.
    Ms. Harman. Thank you.
    Admiral Iasiello. If I may, you have highlighted what was 
for us as a Task Force one of the most critical 
recommendations, that we have a comprehensive prevention 
strategy, cross-service, that is given a strategic leadership 
by the SAPRO office, which has the measurements in there to 
know whether it is working or not, to give us the granularity 
to be able to identify trends, to see whether or not it is in 
fact doing what it is supposed to do.
    But one of the other recommendations which ties into it is 
the fact that we don't feel the DOD can do this alone. If we 
are going to develop a truly effective, comprehensive 
prevention strategy, we need to partner with our national 
allies in this effort, with academia, with the national 
alliances against rape and crimes against women. We need to 
partner with these experts throughout the country so that we 
can move forward with a comprehensive prevention strategy and 
results.
    Mr. Tierney. Thank you Ms. Harman. Thank all of you.
    I think I am going to give people an opportunity to just 
ask another question or two, if they have it, before we let you 
all go. When you talked about culture, Ms. McGinn, I was 
thinking, what we listened to at the last hearing was a 
connection, by one of the witnesses, the connection between the 
ban on women in ground combat and sexual assault. Specifically, 
that witness testified that the ban sends a signal from the top 
that women are second class soldiers and thus inferior to male 
soldiers. The inferiority perpetuates an antagonistic view of 
women that helps create a culture that is conducive to sexual 
assault. Do you want to reflect on that for us, whether you 
think that is true or not and what we might do about it if it 
is?
    Ms. McGinn. I haven't really given that any thought. I do 
know that, and I think it was in the last Task Force report on 
the academies, Dr. Iasiello can correct me, the Task Force 
noted that at the academies the percentage of women that you 
had made a difference in terms of the attitudes and the way 
that people were treated, that there needed to be kind of a 
critical mass of women there.
    I don't know that the ban necessarily creates an issue for 
us. I hadn't really thought that through.
    Mr. Tierney. We can provide that testimony for you, so you 
might be able to take a look at it and let us know what you 
think about it at some other time.
    Ms. McGinn. OK, that would be fine.
    Mr. Tierney. I don't want to hit you unfairly, but it 
struck me when you were saying that, it tied in on that.
    Mr. Hite, you have been very good to sit there through the 
whole hearing. I do want to ask you to weigh in in terms of 
data collection, where you think we are on that, what needs to 
be done to make sure we are at the point we need to be.
    Mr. Hite. Certainly, Mr. Chairman. For any large database 
like this, it should be viewed as a process. It is a journey 
that you have to walk down. So I would say at this juncture 
that the Department is at the end of the beginning of the 
process.
    There are some things that have been done, I give them 
credit for that. But there really is a lot that still remains 
to be done. While I am cautiously optimistic going forward, in 
part because the Department agreed with the recommendations we 
laid out, which was things that needed to be done going 
forward, I do have some doubts. And some of those doubts 
surround what I believe is the need for perhaps more staffing 
in the program office that is devoted to the acquisition and 
implementation of this database, and to make sure that we are 
not too reliant on contractors to do that work for us.
    Mr. Tierney. Thank you very much.
    Finally, the last question I had on this was priorities for 
the General and the Admiral to address. I think you mentioned 
one of them, prevention, was amongst the many recommendations 
that you made to improve the prevention and response program. 
Is there another priority that you think needs attention right 
away, and to a better degree than it is getting now?
    General Dunbar. We have already discussed the data. We 
absolutely believe that the database and the tracking for 
accountability is essential in order to be able to do trend 
analysis to further address the issue. Without that, I would 
continue to just kind of chase tails around the table.
    Mr. Tierney. Great.
    Mr. Flake, did you have any other questions?
    Mr. Flake. I will just yield my time to Mr. Turner.
    Mr. Tierney. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    In looking to the report, General Dunbar, you and I spoke 
about the issue that there are a number of recommendations in 
it that are for congressional action. As you know, the National 
Defense Authorization Act will be moving here in the next 
couple of months. Jane Harman and I last year got a number of 
things that were in it. Obviously the report, we can peruse 
through it and pick out those things that are highlighted as 
congressional action, to take action. But I wondered if DOD in 
response to the report had plans on providing us the 
legislative direction in some of the areas that you are making 
a suggestion that Congress take action. Is that on your to-do 
list, or will you be leaving it to us to go through the report 
and begin to initiate those items?
    General Dunbar. Congressman Turner, we provided those 
recommendations to the Department of Defense and the Secretary 
of Defense and the military services are looking at that. They 
will be providing, Secretary of Defense, I believe on the 1st 
of March, will be providing the report with his comments. So we 
will leave it up to the Department of Defense. The Task Force 
for the most part has concluded its review in providing the 
report to the Secretary of Defense.
    Mr. Turner. Ms. McGinn, they had some very specific 
recommendations. When we met in my office, I saw the urgency of 
it and was saying, gosh, we need to get on these. As you know, 
the bill will be moving in the next couple of months. I 
wouldn't want to miss a whole year that DOD has it on its 
agenda to get those items to us.
    Ms. McGinn. If I am not mistaken, I think in the process 
right now, we have been working with the military departments, 
looking at all of the recommendations of the Task Force, and 
sorting out an overall DOD response. Because not everybody 
agrees with everything. So our job is to adjudicate that and 
make it a consolidated decision for the Secretary.
    As we do that, if we see things that need legislative 
action, we can certainly formulate them for legislative action.
    Mr. Turner. I appreciate your commitment on that. Because 
on the ones that you agree with that are on the report, we 
should move now. And rather than our just taking them and 
putting them forward and then waiting for a response, it would 
be great if we could work together on that.
    Ms. McGinn. Just to be honest with you, our process might 
take longer than that. The process is a bureaucratic process in 
the building.
    Mr. Turner. Well, that is the information I need to know. 
Because if we need to start the process without DOD, we 
certainly have the report. I can get with Members, including 
Jane, to see what items that she sees that are important that 
we might need to move forward.
    Mr. Tierney. Thank you.
    Ms. Harman, do you have an additional comment?
    Ms. Harman. Thank you, Mr. Chairman. I assume your 
committee member----
    Mr. Tierney. Ms. Speier, if you are done. She is next and 
final here.
    Ms. Harman. I would yield to you first. Do I have to go 
now?
    Mr. Tierney. If you have it, go with it.
    Ms. Harman. OK. Two things. First, the comment on 
leadership, I surely agree. I have spoken personally to the 
Secretary of Defense and the Chairman of the Joint Chiefs about 
speaking out on this issue. We all know that don't ask, don't 
tell has gotten a lot of air time lately. I personally hope we 
repeal that policy. But they have spoken out on that issue. And 
I would just use my time to urge them to speak out on this very 
compelling issue.
    But here is my question. I understand in the new GAO report 
you have findings, for example, that say victims don't seek 
prosecutions for fear of a humiliating public trial. You also 
say that half the women who do not report rape or sexual 
assault do so for fear of retaliation. There are remedies for 
these things. For example, you could recommend some way to 
close the trial so it would not be publicly humiliating, or you 
could recommend that people have an easier time to see a base 
transfer, in the case of those who worry that they would be 
retaliated against. That was one of the issues in the 
Lauterbach problem.
    Why didn't you make those recommendations?
    Ms. Farrell. I think this is the Task Force report, not to 
be confused with the GAO report.
    Ms. Harman. Excuse me, I did confuse it with yours. Defense 
Task Force, you folks in the middle, why didn't you make those 
recommendations?
    Admiral Iasiello. I think, Congresswoman, all the many 
areas that we looked at, we understood the role of leadership, 
we understood when we went around and interviewed all the 
commanders, especially the courts martial convening authorities 
in every place, and if you saw the extensive list of 
visitations that we did.
    Ms. Harman. Right.
    Admiral Iasiello. We looked at whether or not they 
aggressively addressed the issue of sexual assault and how 
aggressively they prosecuted any sort of concerns that arose 
within their commands. The feeling that we got as a Task Force 
was that the majority, the major majority of commanders and 
courts martial convening authorities not only take this 
seriously, but they are out aggressively prosecuting where they 
can with the advice of counsel.
    As far as the safety issues, we have specific 
recommendations for the safety of victims. And we were very, 
very concerned about the way victims were treated once they 
reported to their command. And even those that in a restricted 
way reported to the chaplain or someone else, as the General 
mentioned, we were very concerned about the safety and security 
issues. We even went into the barracks and the dormitories of 
the Air Force, we went to see about the security issues that 
were there, and how people were handled, how they were 
processed, how they were tended to whenever they reported an 
incident of sexual assault.
    So that was part of our focus, a very important part of our 
focus. And our recommendations, I think, did address some of 
those issues.
    Ms. Harman. Well, let me just conclude, Mr. Chairman. I 
think the rate of prosecutions lags way behind civil society. I 
think there is much more to do. Part of it is a training issue 
for prosecutors. Again, I think the Army offers the best 
example for what needs to be done there.
    And on the safety issue, there are some specific 
recommendations that I think could have been in your report and 
weren't. For example, facilitating base transfer, which would 
encourage a lot of women to come forward who would otherwise be 
afraid to do so, and if they did so in the case of Lauterbach, 
would have a horrible outcome. So I think there is more to do, 
and I think it needs to focus around prevention much more than 
just response. We would get a lot farther a lot faster with 
this epidemic among those who step forward to protect our 
country and who in fact we don't protect well enough.
    Thank you, Mr. Chairman. I appreciate the opportunity to be 
here.
    Mr. Tierney. Thank you, Ms. Harman. We appreciate your 
interest and concern.
    The gentlewoman from California, Ms. Speier, we thank you 
for your interest and for your leadership on this issue. We are 
happy you could join us here today. You are recognized for 5 
minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    A question to the Task Force. My understanding is that in 
2008, there were 2,265 unrestricted reports that were filed. Of 
those reports, how many of them then were pursued as full 
criminal investigations and court martials?
    General Dunbar. Congresswoman, actually, I believe that the 
SAPRO office is better suited, because they have the data for 
that, to answer the question.
    Ms. Speier. Right.
    Dr. Whitley. I think we have the report. There were 2,389 
investigations on reports made on this and prior years. We 
collect data by fiscal year. But certainly, if an assault 
occurs in September, for example, that case may not be 
completed by then. But there were 2,763 subjects, 592 were 
pending disposition, and 136 subjects were civilians or foreign 
nationals not subject to the UCMJ, so the commander couldn't 
take action. There were 129 subjects that were unidentified. 
There were 1,074 subjects that had cases that were 
unsubstantiated, unfounded, lacked sufficient evidence or 
involved a victim that recanted or a subject that died. There 
were 1,339 subjects that were referred by commanders for the 
following action: there were 317 referred for courts martial, 
247 for non-judicial punishment and 268 administrative actions 
or discharges.
    Ms. Speier. OK, if I understand this correctly, over half 
of the cases or just about half the cases were not dealt with? 
You said 1,074 because of lack of evidence or recanting or the 
like. So half of those people who had the guts to come forward 
were dismissed for whatever reason, correct? And then of the 
remaining, you have 317 that were court martials of that 
original 2,300 figure, and 247 that had some kind of 
administrative action taken.
    So I am in the service, I know those figures. What is the 
likelihood of me reporting a second time, when those who had 
the guts to report end up seeing that half of them are thrown 
out? Now, I don't know the circumstances when they were or how 
they were thrown out. But those numbers are chilling. If in 
fact there are so many more that go unreported for the very 
reason that they are concerned about ostracism or retaliation, 
we have a bigger problem than one might suspect.
    Dr. Whitley. Well, there is another point. We have six 
different categories of sexual assault in the UCMJ, from the 
least egregious, which would be indecent touching, to 
aggravated assault or rape. So there is a wide variety of 
sexual assault. It is not just rape. But what you were 
talking----
    Ms. Speier. Well, wait a second. With all due respect, 
unwelcome touching to me is an assault. And I think for most 
women it would be an assault. To somehow diminish them because 
there are levels of gravity is not really comforting.
    Dr. Whitley. The commander does have the discretion to 
award a punishment he feels fits the crime, if you will. And we 
do provide synopses in our report which describes each of these 
cases. And I don't think you will get any of us disagreeing 
with you and we know we can do better. Just as Ms. Harman said, 
part of her interest and her relationship with the former 
Secretary of the Army, we are looking closer at how to train 
trial counsel. We actually just got the funding to train 
prosecutors and investigators, so that we can improve the 
process.
    I wanted to comment on something. You used the word 
chilling. And there is something in the literature called the 
chilling effect. If you do send a case to court martial and 
that person gets off, by the time it gets back to the people in 
the unit or the people in the academy, usually the perception 
is the victim lied. It has a tremendous effect when that 
happens.
    Ms. Speier. So I would suggest a couple things. One is, 
there has to be a way to video tape a victim and change their 
voice so that they aren't necessarily specifically 
identifiable. Two, I think that there should be a zero 
tolerance policy that is communicated everywhere and then is 
reflect in what actually takes place. Third, I think there 
should be some kind of a review of those women who come forward 
and who make a complaint. There is a court martial, the 
individual perpetrator is court martialed. What then happens to 
the victim in their professional career? I would like to see us 
track them to see, what is their life like afterwards. Because 
if their life is for all intents and purposes professionally 
destroyed, that sends us yet another message of why were are 
not getting people coming forward.
    Thank you. I yield back.
    Mr. Tierney. Thank you very much.
    That concludes our questioning of this panel. I just want 
to take one moment to thank our friends from the Government 
Accountability Office. You have been steadfast and incredibly 
helpful on this. I suspect your work isn't done. At some point 
we may want you to look at this again for us. I just want to 
thank you for the great work that you have done.
    Dr. Iasiello and General Dunbar, thank you for your service 
to the country generally, but specifically on this Task Force. 
I understand from your testimony you think you are done now and 
that completes your responsibilities on this. So I am sure you 
are on to other things. We appreciate a great deal the work 
that you did. We understand the magnitude of it, the time and 
effort that went into it, and the specificity in your report is 
incredibly helpful. I really believe that it is going to be 
looked at and used as a guide to folks going forward. So we 
thank both of you as well.
    And Dr. Whitley and Ms. McGinn, when this whole series of 
hearings started, we weren't too favorably disposed toward the 
Department's attitude toward this. That is nothing personal 
against Dr. Whitley, because I think she had her work impeded. 
Mr. Dominquez and others I think were horrible, and I think 
they did things they shouldn't have done. I think their 
attitude wasn't where it should be on this issue.
    I am impressed with both of you, with the sense of 
responsibility and desire to deal with this. I think we have a 
way to go, and I think your acknowledgement of that is 
comforting to us, that you understand exactly what is going on 
here and that there is work to do. You seem quite willing to do 
it and to use the good resources that you have at your disposal 
to get it done.
    I think I can speak for the rest of the subcommittee on 
this: we appreciate that. It has not always been the case. It 
gives us a feeling that as we go forward, we don't have to have 
hearing after hearing after hearing to see whether or not the 
Department of Defense takes it seriously.
    So good luck going forward. Thank you everybody for your 
work. I hope that the men and women in the service are somewhat 
comforted by the fact that you are on it, you are on the case 
and you are working on it, and as a group, we will all take 
this as a joint challenge and move forward. Thank you very 
much.
    At this point in time, I want to thank the witnesses on 
this panel and we will now receive testimony from our second 
panel before us, Mr. Merle Wilberding.
    Good afternoon, Mr. Wilberding. Thank you very much for 
being here.
    Mr. Merle Wilberding is an attorney with the law firm of 
Coolidge Wall in Dayton, OH. He represented Mary Lauterbach 
after the death of her daughter, Lance Corporal Maria 
Lauterbach. He has previously worked with a number of 
additional families of victims of military sexual assault. He 
is also a retired captain in the U.S. Army, where he served in 
the Judge Advocate General Corps. Mr. Wilberding holds a J.D. 
from the University of Notre Dame.
    I want to thank you for coming here, Mr. Wilberding, making 
yourself available for us to help us. I ask that you stand and 
raise your right hand.
    [Witness sworn.]
    Mr. Tierney. Thank you very much.
    With that, Mr. Wilberding, you have a statement, I 
understand. Your full statement will be put on the record, of 
course. But if you could tell us in 5 minutes generally your 
points, your high points on that, we would appreciate it.

   STATEMENT OF MERLE F. WILBERDING, ATTORNEY, COOLIDGE WALL

    Mr. Wilberding. Thank you. Thank you, Chairman Tierney, 
Congressman Flake and members of the panel. I appreciate the 
opportunity to appear before you today. I have submitted m 
written statement and I will give you a short summary right 
now.
    I am Merle Wilberding. I am an attorney from Dayton, OH. 
During the Vietnam War I served as a captain the Army Judge 
Advocate General Corps. Since early January 2008, I have 
represented Mary Lauterbach, the mother of Marine Lance 
Corporal Maria Lauterbach, who had filed a claim of sexual 
assault against fellow Marine Corporal Cesar Laurean, only to 
be murdered 6 months later and buried in a shallow fire pit in 
Cesar Laurean's back yard.
    At a hearing before this subcommittee on July 31, 2008, 
Mary Lauterbach became the voice of her daughter as she shared 
the fears and harassment that Maria had endured after she had 
filed the sexual assault complaint. This afternoon, I want to 
talk about the continuing stream of other victims and their 
families who have reached out to Mary and me.
    For me, it started in the cemetery after Maria's funeral. I 
was approached by three or four women, all of whom told me that 
they had been victims of sexual assault in the military and all 
of whom told me that their lives had never recovered. As time 
continued, the stories from other victims continued. In 
February, we had a call from a mother whose daughter had filed 
a sexual assault claim against a fellow soldier. My heart went 
out to her as she said, ``Maria's story could have been my 
daughter's story. The only difference between my daughter and 
Maria Lauterbach is that Maria is dead.''
    In March, we had another call from a mother whose 19 year 
old daughter had filed a sexual assault claim against a fellow 
soldier. Instead of receiving protection and programs to help 
her recover, she was haunted by the ostracism and the disbelief 
of the fellow members of the unit. Meanwhile, the accused was 
treated with sympathy and deference as the case moved forward.
    In June, we received a phone call from a mother who had 
watched NBC's Dateline program on Maria Lauterbach's case. Her 
20 year old daughter was a Marine who had just made a sexual 
assault claim. Now she feared for her life. She had a military 
victim advocate assigned to her, but the victim advocate told 
her that there wasn't really anything she could do for her.
    All of these stories were virtually identical. The 
complaining victim became isolated and harassed. Their lives 
were disoriented. The victim became the accused; the accused 
became the victim. Significantly, all of these victims were no 
longer effectively contributing to the mission of the military.
    I want to focus on victim advocates, or as I often call 
them, victim listeners. In every discussion I have had with 
victims and victims' families, the victim advocate was 
described as a very nice person who expressed her concern and 
understanding but was not proactive and was not independent, 
and either could not or was not able to do anything. In Maria 
Lauterbach's case, her victim advocate was her direct report 
within the chain of command. Consequently, her victim advocate 
had to think about her own efficiency reports, her own 
performance reviews and her own obligations to the command.
    I have read the report of the Defense Task Force on Sexual 
Assault in the Military Services. There are recommendations to 
improve the victim advocate program, but I do not believe they 
go far enough. Victim advocates need the ability and the 
training to be more proactive. It is at these most critical 
times that the victim advocate must act. It is important to 
remember that these victims are often 18 to 21 years old and at 
this point, very vulnerable, very much alone and very much 
incapable of making good decisions.
    Victim advocates need clear authority to act independent of 
the command. Congress should consider establishing a line of 
authority for victim advocates that is outside the base chain 
of command. Are we making progress? I am at the boots on the 
ground level. What I see is not progress. I have heard the 
testimony of the panel before and the difficulties of making 
progress and of measuring progress. I accept their testimony 
for what it was. But I do not think we have done enough. We 
need to do more.
    Victims need a better protection system to survive sexual 
assaults in the military. And the military needs a better 
victim protection system to protect their own interests in 
continuing to have a supportive and healthy and active military 
force.
    Thank you, and I am open for any questions you may have.
    [The prepared statement of Mr. Wilberding follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Tierney. Thank you, sir. We appreciate that.
    Why don't we start the question with Mr. Turner, who was 
kind enough to make sure that your testimony was procured for 
us here today? Mr. Turner.
    Mr. Turner. Thank you Mr. Chairman.
    Mr. Chairman, I want to thank you again and also Ranking 
Member Flake, for allowing Mr. Wilberding to testify. In 
addition to his work, obviously his perspective is very helpful 
to us, as he has reviewed the report that we have just 
received.
    I would like to ask, if I could, to enter into the record 
an op-ed piece that Mr. Wilberding has written, ``Sexual 
Assault in the Military: Looking for a Few Good Changes,'' that 
has some of the recommended changes that he just spoke about.
    Mr. Tierney. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Turner. I wanted to ask Mr. Wilberding, when you began 
to represent the Lauterbach family and the facts began to 
unfold, you had a critical eye and ability to look at where 
things went wrong, where the military and DOD did things wrong. 
I greatly appreciated that, because it has been a great 
assistance to me as we have looked to legislation that might be 
able to address some of the issues.
    But one thing I find really compelling about the story of 
your experience, since you began working with the Lauterbach 
family, is that others have come to you. They have come to you 
with their stories of their experiences. Why do you think 
people are reaching out so, and have been contacting you to 
tell you their stories also?
    Mr. Wilberding. It has been an interesting process in the 
time period now really 2 years from that. And people have 
called from all over the country. The cases I cited here, they 
were in military bases throughout the country. And each time, 
what was consistent to me was that they had nowhere to turn to, 
their daughters, in every case, could not, did not have any 
faith and trust in the victim advocate that they were dealing 
with. They didn't have any faith in the superiors they were 
dealing with. They were really struggling. And these are, for 
the most part, hard-working people who didn't have the money to 
go to faraway places. In every instance, their daughter was a 
very long distance away from home.
    So there wasn't the support system for the daughter from 
the home that you could have, for example, if a rape occurred 
in a college atmosphere. But in the military, it is different. 
I think they were reaching out to us, primarily because one, 
they wanted to tell their story. I thought they really wanted 
to get the story out of the struggles, the frustrations they 
had. And two, I think they were looking for a support group 
that reassured them that people cared about them. I thought 
that was what I really felt, was that they were so alone and 
their daughters were so alone, they were getting no support 
from anyone in the military. That is what they were reaching 
out for.
    Mr. Turner. Your recommendation on the victim advocates, 
taking them from the chain of command, how will that allow them 
to be more proactive and what would that do to help us in the 
system?
    Mr. Wilberding. It is an interesting concept, especially in 
light of the conversation from the panel earlier today. My 
initial thought had always been that when the Marines issued 
their statement on January 15, 2008, remember that her body was 
found on Friday, January 11th, and at 3 o'clock the Marines 
issued a nine-page opening statement, they called it, that 
listed everything they had done.
    What struck me about it, and by the way, they read it to 
us, this was in a conference room with Mary Lauterbach, they 
read it to us literally minutes before they walked in front and 
read it. So we had no opportunity to see it in advance and were 
trying to take notes on it.
    But what struck me about that nine-page opening statement 
was, it was a series of statements as to providing some basis 
for why they didn't do, didn't take things seriously, didn't 
take certain actions, didn't pursue her. Everything seemed to 
us that it looked like they were giving reasons why they didn't 
do anything, and why their guesses at that were reasonable 
guesses. What struck me is, there wasn't anything in there, gee 
whiz, we could have done more, we should have done more.
    It came across with not a mea culpa, but a Maria culpa. It 
really struck me as they were saying, well, nobody gave us all 
the hard evidence. If you had just told me all that. And they 
are putting the burden on the accused to connect the dots. 
There were a lot of red alerts in that.
    What struck me about the conference and the panel earlier 
was that when the question was asked, why wasn't it in the 
report, and the response was, they talked to the commanders, 
and I have a good appreciation for that, and a good amount of 
respect for them, great respect for them. When you talk to the 
commanders, it is like the same situation to my reaction, it is 
the same as what I saw here.
    It is the same as people in general. When people look at 
facts, they tend to look at it as reinforcing their own 
position. When institutions look at facts, they tend to look at 
the facts reinforcing their own position.
    So when the Marines looked at the Lauterbach facts, they 
looked at it in the sense of, well, we did this, we did that, 
nobody told us about this, nobody told us about that. And that 
is what I heard, frankly, in my view, of the commanding 
generals: do we need an independent one? No, we are doing a 
good job ourselves.
    And I sort of sense that is how the, it is part human 
nature and part institutional nature. But I think it is 
something to keep in mind as you evaluate those positions.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Tierney. Where would the line of authority line to best 
assure that independence?
    Mr. Wilberding. That is a fair question. A reasonable 
opportunity as to whether or not there is, I recognize the 
suggestion that it should be a DOD employee, a civilian or a 
member of the military if it is a military victim advocate. But 
I think if they talk about it, and I have been out of the Army 
for a number of years, but the Defense Council and the military 
have a separate chain of command that the prosecutors don't 
have. They did that to create some independence in that.
    In terms of that, why I think it is important, and Maria's 
case is a good illustration, is the Marines gave their 
statement on January 15th, this is what happened, every fact is 
true and nobody told us differently and we obviously don't have 
any obligation to pursue it.
    But in doing that, they didn't really look at what had 
happened beforehand. Consequently, things just fell by the 
wayside. They didn't have an independent victim advocate 
saying, particularly in that period, it should have been all 
the time, from May until December, she went missing on December 
14th, victim advocate could have been and should have been 
doing more things.
    But from December 14th to January 11th, to me that is where 
an independent advocate could have been most helpful. What 
about this evidence? Mary Lauterbach, as the mother, could have 
been in contact with her, found this, found that, why don't you 
do more.
    Mr. Tierney. I get that aspect of it. I think it is a point 
well made. But to whom would that victim advocate report?
    Mr. Wilberding. I think they would have to create that 
system within the military.
    Mr. Tierney. And what about the Task Force recommendation 
that there be privileged communications between the advocate 
and the victim? Is that a good idea?
    Mr. Wilberding. I think that is a very good idea. I read 
the victims' stories in Appendix F and detailed the stories 
where defense counsel for the accused had essentially taken the 
depositions, called them to trial, I think that is a very good 
suggestion.
    Mr. Tierney. Mr. Flake. Mr. Turner.
    Sir, I want to thank you for coming all this way to make 
your suggestions. I appreciate your letting us put your article 
in the record. I think these are things that help inform our 
decisions as we go forward, particularly that one idea that 
certainly needs and warrants to be explored.
    So with our appreciation, thank you.
    Mr. Wilberding. Thank you, Mr. Chairman.
    Mr. Tierney. With that, the meeting is adjourned.
    [Whereupon, at 5:11 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre></body></html>
